<html>
<title> - NOMINATIONS OF JOHNNY HAYES, JUDITH M. ESPINOSA, D. MICHAEL RAPPOPORT, AND MAJOR GENERAL ROBERT BERNARD FLOWERS</title>
<body><pre>[Senate Hearing 105-43]
[From the U.S. Government Printing Office]


                                                         S. Hrg. 105-43


 
NOMINATIONS OF JOHNNY HAYES, JUDITH M. ESPINOSA, D. MICHAEL RAPPOPORT, 
                AND MAJOR GENERAL ROBERT BERNARD FLOWERS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

    THE NOMINATIONS OF JOHNNY HAYES, TO BE A MEMBER OF THE BOARD OF 
DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY; JUDITH M. ESPINOSA AND D. 
MICHAEL RAPPAPORT, TO BE MEMBERS OF THE MORRIS K. UDALL SCHOLARSHIP AND 
 EXCELLENCE IN NATIONAL ENVIRONMENTAL POLICY FOUNDATION; AND MAJ. GEN. 
  ROBERT B. FLOWERS, TO BE A MEMBER AND PRESIDENT OF THE MISSISSIPPI 
                            RIVER COMMISSION

                               __________

                             MARCH 14, 1997

                               __________

  Printed for the use of the Committee on Environment and Public Works




                       U.S. GOVERNMENT PRINING OFFICE
 40-683 CC                   WASHINGTON : 1997
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                   Steven J. Shimberg, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              

                             MARCH 14, 1997

                                                                   Page

                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     3
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     9

                               WITNESSES

Bingaman, Hon. Jeff, U.S. Senator from the State of New Mexico...     4
Espinosa, Judith M., nominated by the President to be a member of 
  the Board of Trustees of the Morris K. Udall Scholarship and 
  Excellence in National Environmental Policy Foundation.........    18
    Biography....................................................    50
    Committee questionnaire......................................    36
    Letter from Office of Government Ethics......................    48
    Letter of support from Senator Domenici......................     7
    Prepared statement...........................................    35
    Response to additional question from Senator Chafee..........    55
Flowers, Major General Robert B., Commander and Division 
  Engineer, Lower Mississippi Valley Division, U.S. Army Corps of 
  Engineers, prepared statement..................................    35
    Biography....................................................    70
    Committee questionnaire......................................    77
    Prepared statement...........................................    68
    Responses to additional questions from Senator Chafee........    72
Frist, Hon. Bill, U.S. Senator from the State of Tennessee.......     2
Hayes, Johnny H., nominated by the President to be a member of 
  the Board of Directors of the Tennessee Valley Authority.......    10
    Committee questionnaire......................................    27
    Prepared statement...........................................    22
    Responses to additional questions from:
        Senator Chafee...........................................    25
        Senator Inhofe...........................................    24
Rappoport, D. Michael, nominated by the President to be a member 
  of the Board of Trustees of the Morris K. Udall Scholarship and 
  Excellence in National Environmental Policy Foundation.........    19
    Committee questionnaire......................................    60
    Letters of support from Senators Kyl and McCain..............     7
    Prepared statement...........................................    56
    Responses to additional question from Senator Chafee.........    58

                          ADDITIONAL MATERIAL

Letters from:
    Senator Domenici.............................................     6
    Senator Kyl..................................................     7
    Senator McCain...............................................     8

                                 (iii)



NOMINATIONS OF JOHNNY HAYES, JUDITH M. ESPINOSA, D. MICHAEL RAPPOPORT, 
                AND MAJOR GENERAL ROBERT BERNARD FLOWERS

                              ----------                              


                         FRIDAY, MARCH 14, 1997

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m. in room 
406, Senate Dirksen Building, Hon. John H. Chafee (chairman of 
the committee) presiding.
    Present: Senators Chafee, Baucus, and Sessions.

OPENING STATEMENT OF HON. JOHN H. CHAFEE, U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Chafee. Will the committee please come to order?
    Today we're going to have a hearing on several nominees. 
The first nominee will be Mr. Johnny H. Hayes who has been 
nominated by the President to be a member of the Board of 
Directors of the Tennessee Valley Authority. He's currently 
serving there now.
    The second panel is Ms. Judith M. Espinosa, nominated by 
the President to be a member of the Board of Trustees of the 
Morris K. Udall Scholarship and Excellence in National 
Environmental Policy Foundation and Mr. Rappoport, likewise.
    [The prepared statement of Senator Chafee follows:]
Statement of Hon. John H. Chafee, U.S. Senator From the State of Rhode 
                                 Island
    Good morning. The purpose of this today's hearing is to consider 
the following Presidential nominations: Johnny Hayes, to be a Member of 
the Tennessee Valley Authority Board of Directors; and for the Board of 
Trustees for the Morris K. Udall Scholarship and Excellence in National 
Environmental Policy Foundation, Judith Espinosa and Mike Rappoport.
    I would like to welcome everyone, especially Mr. Hayes, who is 
joined by his wife, Mary Howard Hayes, and daughter Amy Hayes; Mr. 
Rappoport, who is joined by his wife, Suzi Rappoport, and son Sloan 
Rappoport; and Ms. Espinosa, whose daughter was unable to attend 
because tonight is opening night of her high school play. Before we 
proceed, Senator Frist is here, and he would like to make a brief 
statement on behalf of Mr. Hayes. Also, I understand that Senator 
Bingaman would like to introduce Ms. Espinosa.
    All of our witnesses were nominated by the President on January 9 
of this year, and we have received their paperwork in the interim. It 
is my intention that the Committee act expeditiously on these 
nominations.
    Understandably, Gen. Flowers, the President's nominee for President 
and Member of the Mississippi River Commission, cannot join us today. 
In his current post as the Army Corps of Engineers District Commander 
of the Lower Mississippi Valley, he is having to make critical 
decisions with respect to the terrible flooding in that area.
    The record will be left open for 1 week ending March 21 to 
accommodate written questions from members, which will in turn, be 
answered by Gen. Flowers within the following 2 weeks ending April 4 
before any action is taken on his nomination.
    I am pleased to report that all of the nominees have impressive and 
diverse backgrounds and are well-suited to the positions before them.
    Johnny Hayes has served as a TVA Director since 1993. Some of you 
may recall when Mr. Hayes appeared before this Committee in 1993, as 
the President's nominee to fill the term of outgoing Director Marvin 
Runyon.
    Over the last 3\1/2\ years, Mr. Hayes has used his extensive 
experience in economic development to help modernize and streamline 
TVA's programs. TVA is undergoing some major changes right now, with 
the phaseout of its appropriated programs, as well as the larger 
restructuring of the electric utility industry. It is my hope that TVA 
will make a successful transition from a Federal agency to a power 
business. Mr. Hayes, the demands before you are great, but I am 
confident in your ability to face the challenges ahead.
    The President's nominees to be trustees of the Mo Udall Foundation 
also have impressive backgrounds. The Foundation was established by 
Congress in 1992 to honor Congressman Mo Udall for his service to the 
Nation as an environmental leader and a defender of Native American 
rights. The Foundation operates scholarship and fellowship programs for 
outstanding U.S. students who are interested in pursuing careers in 
environmental policy, conflict resolution, health care, and Native 
American public policy.
    Judith Espinosa is the current President of the ``Alliance for 
Transportation Research Institute'' at the University of New Mexico. 
She has served as both Secretary of Transportation and Secretary of the 
Environment for the state of New Mexico. She has also given a 
substantial amount of her limited free time as a mentor to students 
living within disadvantaged communities in New Mexico and California.
    Mr. Rappoport, who has served on the Udall Board for the past 2 
years, has a great deal of experience with water and other natural 
resource issues. For the past 23 years, he has served in a variety of 
leadership capacities for the Salt River Project, a mammoth water and 
electricity utility in Phoenix. I might add that Mr. Rappoport is a 
veteran of Capitol Hill, having worked as a House legislative assistant 
in the early seventies.
    I look forward to hearing what today's witnesses have to say about 
their backgrounds and what they hope to accomplish. Thank you.

    Senator Chafee. I note that Senator Frist is here and if 
you'd like to introduce Mr. Hayes, that would be fine.

 STATEMENT OF HON. BILL FRIST, U.S. SENATOR FROM THE STATE OF 
                           TENNESSEE

    Senator Frist. Thank you, Mr. Chairman.
    Chairman Chafee, Ranking Member Baucus, thank you for the 
opportunity to introduce Mr. Johnny Hayes today, a fellow 
Tennessean and not a newcomer to this committee.
    Johnny Hayes was first appointed to the post of Director of 
the Tennessee Valley Authority by the President in 1993. He 
came to TVA at a very critical time in its history and will 
serve through another critical time in the history of this 
agency and its evolution.
    Mr. Hayes has proven himself to be a capable member of the 
Board of TVA and the President and Vice President clearly have 
a great deal of confidence in his ability to meet the coming 
challenges posed to TVA by utility deregulation and the 
increasing challenges of management of the precious land and 
water resources of seven States in TVA.
    Before his appointment to the board, Mr. Hayes served in 
our State, the great State of Tennessee, as commissioner of 
Employment and Security and as commissioner of Economic and 
Community Development for our home State.
    Before entering public service, he was a successful, 
independent businessman and is still active in the community in 
a number of initiatives, both through public service 
organizations as well as his church.
    He continues to be active in economic development in our 
State, especially in smaller communities all across the State 
of Tennessee. In this capacity, he has become highly respected 
within the Tennessee Valley Authority.
    He has overseen countless economic development projects 
which have provided critical know-how as well as capital for a 
myriad of small- and medium-sized business ventures which 
really are the life blood of many communities in Tennessee and 
throughout the valley.
    He's overseen the advent of something we can all appreciate 
as we again approach our yearly appropriations cycle as TVA 
will soon move all of their community and small business 
development, financing from the responsibility of the taxpayer 
into the fully self-financed power accounts.
    Mr. Chairman, I trust that the committee members will see 
fit to accept the President's high recommendation and reconfirm 
Mr. Hayes to the Board of the Tennessee Valley Authority. His 
expertise and experience will serve the agency and the State of 
Tennessee well in the coming years as he has since 1993.
    Thank you.
    Senator Chafee. Thank you very much for that high 
recommendation, Senator Frist.
    Senator Baker also called me in connection with Mr. Hayes, 
heartily endorsing Mr. Hayes for this position.
    The Senators are busy and you're certainly excused Senator 
Frist unless you have any questions.
    Senator Baucus.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you. I have a statement for the 
record.
    [The prepared statement of Senator Baucus follows:]
  Statement of Hon. Max Baucus, U.S. Senator From the State of Montana
    Good morning, and welcome to all of our nominees.
    Mr. Hayes, I look forward to hearing how the TVA has succeeded in 
keeping rates stable for 10 consecutive years while at the same time 
downsizing, saving more than $100 million annually and reducing green 
house emissions. Sounds like quite an accomplishment, and you've just 
been there for 3 years!
    Ms. Espinosa, I look forward to hearing what ideas you have for the 
Udall Scholarship and Foundation as a new appointee and Mr. Rappoport, 
as one of the first trustees of the Udall Scholarship and Foundation, I 
look forward to hearing what you've accomplished in your first 2\1/2\ 
years and what new initiatives you think the Foundation should 
undertake in the next century.
    You two have a great responsibility. The contributions that Mo 
Udall has made not only to the environment of this country but to the 
environmental consciousness of America are unsurpassed. Fostering that 
consciousness through scholarship awards and environmental policy 
awareness is not only a tribute to him, but a great way to preserve his 
legacy.
    I look forward to hearing your testimony.

    Senator Chafee. Senator Bingaman, why don't you come 
forward and your folks can come up, Mr. Rappoport and Ms. 
Espinosa, and we'll have Senator Bingaman first because he has 
other obligations, I'm sure.

STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM THE STATE OF 
                           NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman.
    I appreciate the chance to say just a few words in support 
of Judith Espinosa for this position as Trustee for the Morris 
K. Udall Foundation.
    She's a person who I've worked with over many years, 
particularly on the difficult job, which all of us face of 
trying to reconcile and accommodate the need for economic 
growth, which we all recognize, and the need to protect our 
environment. She has been in very key positions in our State 
where those two concerns come together.
    She has twice served in the New Mexico State Cabinet under 
Governors in our State, once as Secretary of Transportation and 
she was also the chairwoman of the National Governors 
Association Committee on Hazardous Materials Transportation, 
which I know this committee spends a lot of time on. Also she 
served as New Mexico's first Secretary for the Environment. She 
has distinguished herself in both those positions.
    She is now serving as the acting president for the Alliance 
for Transportation Research at the Transportation Research 
Institute at the University of New Mexico.
    She will bring to this position great experience and good 
judgment and I think the Morris K. Udall Foundation will be 
well served by her being on the board. I recommend her heartily 
to this committee and I hope she will be confirmed for the 
position.
    [The prepared statement of Senator Bingaman follows:]
  Statement of Hon. Jeff Bingaman, U.S. Senator From the State of New 
                                 Mexico
    Thank you Mr. Chairman. I would like to give you and the committee 
a brief introduction to a truly outstanding candidate as trustee for 
the Morris K. Udall Foundation. My good friend, Judith Espinosa. In New 
Mexico, Judy has been an inspiration to all of us who have to wrestle 
with the very difficult, and often thankless, task of reconciling our 
needs for economic growth and jobs with our need for a healthy 
sustainable environment. Because of her boundless energy in the pursuit 
of solutions on these issues, her string of accomplishments is too long 
for me to list here. So let me just give you some highlights of Judy's 
background that illustrate why I think she will be a great trustee for 
the Foundation.
    As we all know, finding real solutions to provide an 
environmentally sound and sustainable economy requires building a 
consensus between industry, government, the environmental community, 
science and education. The pursuit of consensus is the legacy that Mo 
Udall left us and the goal of the Foundation, and Judith Espinosa 
covers all of these bases:
    She has served twice in the New Mexico State Cabinet, once as 
Secretary of Transportation when she was also Chairwoman of the 
National Governors' Association Committee on Hazardous Materials 
Transportation, and also as New Mexico's first Secretary for the 
Environment, where she chaired both the state commission on mining and 
the state commission on water quality. She also headed the Government 
Advisory Committee to EPA on the supplemental environmental agreement 
for NAFTA.
    Judy, a registered nurse with a Masters in public health 
administration, also has experience in the private sector, running her 
own consulting business for industry and government agencies on health 
services and administration. Her non-profit experience includes serving 
on the boards of the Surface Transportation Policy Project, and the 
National Wildlife Federation. Currently, she is acting president for 
the Alliance for Transportation Research Institute at the University of 
New Mexico.
    In short, I can think of no one better qualified to oversee the 
Foundation's missions to expand consensus on environmentally 
sustainable development, and to promote education in environmental 
science. She has worked in, and with, industry, government, 
environmental groups, and the education and science communities. It is 
rare to find someone who has worked in all of these areas and excelled 
in each receiving a U.S. Fellowship in Public Health Service and Health 
Science, and recognition from the New Mexico State Legislature in a 
memorial passed to honor her distinguished public service.
    I commend her for your consideration as Trustee. Thank you.

    Senator Chafee. Senator, we appreciate your taking the time 
and trouble to come here. I must say Ms. Espinosa is off to a 
fine start. Here's a strong letter of recommendation from 
Senator Domenici likewise. So you've got both your Senators 
from two different parties endorsing your nomination for this 
position.
    I'll just read the final paragraph of Senator Domenici's 
letter. ``For all these reasons, I'm pleased you've scheduled a 
hearing on Ms. Espinosa's nomination for March 14. I highly 
recommend that the committee approve her confirmation as 
quickly as possible so that her extensive experience and unique 
talents can be utilized as a trustee of the Morris K. Udall 
Foundation. Very truly yours, Pete V. Domenici.''
    Senator do you have any questions or comments?
    Senator Baucus. About any of the nominees?
    Senator Chafee. No, in connection with Senator Bingaman?
    Senator Baucus. No, thank you.
    Senator Chafee. Thank you very much, Senator, for coming.
    Senator Bingaman. Thank you.
    Senator Chafee. I will put these letters in the record. 
There are also two other letters from Senator McCain and from 
Senator Kyl.
    Senator McCain's letter says, ``I'm delighted to endorse 
the President's nomination of Mr. Rappoport and urge the 
Committee on Environment and Public Works to favorably 
recommend the nomination of Mr. D. Michael Rappoport at its 
earliest opportunity.''
    Senator Kyl says, ``I'm certain that Mr. Rappoport's 
nomination to and service on the Board of Trustees will ensure 
the continuation of the successful activities of the Udall 
Foundation.''
    You're all batting two for two as regards to your Senators, 
so that is very nice. We'll put these letters in the record.
    [The letters from Senators Domenici, McCain, and Kyl 
follow:]
[GRAPHIC] [TIFF OMITTED] TH043.006

[GRAPHIC] [TIFF OMITTED] TH043.007

[GRAPHIC] [TIFF OMITTED] TH043.008

    Senator Chafee. Before we start, I'd like to ask if there 
are any family members? Mr. Hayes, do you have any of your 
family members here?
    Mr. Hayes. My wife, Mary Howard, and my daughter, Amy.
    Senator Chafee. Will they rise just so we have an 
opportunity to see them?
    We're delighted you're here.
    Ms. Espinosa, do you have any family here?
    Ms. Espinosa. I don't, sir, but I have a good friend of 
mine who is here, Mr. Hank Dittman from the Surface 
Transportation Policy Project.
    Senator Chafee. Fine. Glad you're here.
    Mr. Rappoport.
    Mr. Rappoport. Senator, thank you. I have my wife, Susie, 
and our son, Sloane, here with us.
    Senator Chafee. Fine. We welcome you all here and are very 
pleased you took the trouble to come.
    Gen. Flowers is the President's nominee for president and 
member of the Mississippi River Commission. Gen. Flowers is 
extremely busy with matters dealing with the floods in the 
Mississippi River area right now, so I made the following 
arrangement.
    We excused Gen. Flowers from appearing here. We will leave 
the record open for 1 week ending March 21 to accommodate any 
written questions from members to Gen. Flowers. In other words, 
they will have a week from today, the 14th, until the 21 of 
this month to submit questions to Gen. Flowers.
    Gen. Flowers will then have 2 weeks ending April 4 to 
answer and no action will take place before then on his 
nomination. Following that, we will take up his nomination.
    Before I start, Senator Sessions, do you have any comments 
you wish to make?

OPENING STATEMENT OF HON. JEFF SESSIONS, U.S. SENATOR FROM THE 
                        STATE OF ALABAMA

    Senator Sessions. I would, Mr. Chairman.
    I appreciate the opportunity to be here and I thank you for 
holding this hearing to consider the nomination of Johnny 
Hayes, an individual that I've gotten to know on several 
occasions and talked in some depth about before the Tennessee 
Valley Authority, and Ms. Judith Espinosa and Michael Rappoport 
to be members of the Board of Trustees for the Morris K. Udall 
Scholarship Foundation.
    Over 70 years ago Congress, along with President Franklin 
Delano Roosevelt, passed the Tennessee Valley Act as part of 
the New Deal to help bring the Tennessee Valley out of the 
Depression.
    The preamble of the original Act states:

    TVA's purpose is to improve navigability and to provide for 
flood control of the Tennessee River; to provide for 
reforestation and the proper use of marginal lands in the 
Tennessee Valley; to provide for the agricultural and 
industrial development of said valley; and to provide for the 
national defense by creation of a corporation for the operation 
of government property at or near Muscle Shoals in the State of 
Alabama.

    The need, justification and intent of the original Act is 
important still even today.
    I'm concerned by recent reports that many of those 
activities might be abandoned and we need to discuss what might 
take their place and how some of those absolutely essential 
duties would be developed.
    Tennessee Valley Authority does much more than just produce 
efficient, commercial power for the residents of the Tennessee 
Valley; it is responsible for flood control and in charge of 
managing its economic and development programs in that region.
    The Tennessee Valley Authority has successfully managed the 
rivers and government lands in the Valley since 1933. Someone 
would need to continue those activities if the TVA does not do 
them.
    I think there is a concern in Alabama and in the region 
concerning what is going to happen if we make major changes in 
that. Those are some things that I would want to talk with Mr. 
Hayes about today. Flood control is basic and that is something 
we'll need to talk about.
    The Environmental Research Center in Muscle Shoals is a 
remarkable institution. I think it's on the road to perhaps 
proving that it can stand on its own. It's been cut every year 
in its budget and it has 230 employees, but because of the 
quality of their work and contracting out activities, it 
appears they may very well be able to stand on their own.
    I met with the leadership of that Center and they have a 
positive attitude about the challenges they are facing. I 
believe they are going to be very successful and we want to be 
sure that we don't hamper or undermine their ability to 
succeed. We want to be sure that they continue in the Muscle 
Shoals area and not be transferred somewhere else.
    I understand TVA has established a 19-member task force to 
examine some of these issues and I look forward to working with 
them. I look forward to working with you, Mr. Hayes, as we go 
forward today.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you very much, Senator.
    Mr. Hayes, I'm sure this isn't anything new to you, there 
is a belief that I share that we want to get TVA to the 
greatest extent possible away from having to receive annual 
appropriations from here. Since you've been on the Authority, 
you've worked to achieve that.
    What do you receive now, $106 million a year?

STATEMENT OF JOHNNY H. HAYES, NOMINATED BY THE PRESIDENT TO BE 
  A MEMBER OF THE BOARD OF DIRECTORS OF THE TENNESSEE VALLEY 
                           AUTHORITY

    Mr. Hayes. Yes, sir.
    Senator Chafee. Has that come down over the years?
    Mr. Hayes. It has come down.
    Senator Chafee. At least it hasn't grown with inflation?
    Mr. Hayes. No, sir, it hasn't. It's come down every year. 
At one time we were getting, when I first began serving, 
approximately $140 million and it's down to $106 million.
    Senator Chafee. Do you see possibilities of further 
reductions as we go along?
    Mr. Hayes. Over the past 3 years, as Senator Sessions said, 
the Environmental Research Center has been on a path to self-
financing. It only receives about $15 to $16 million dollars in 
appropriations at the present time and about $17 to $18 million 
comes from self-perpetuating projects. That was to be phased 
out in next year's budget as a plan that was started 3 years 
ago, instituted by us and Congress.
    The economic development program which we're very proud of 
in the Valley, we've restructured it, worked at it hard. It is 
down to where we're only asking for $4 million and to be phased 
out the following year. We've developed the economic 
development program and moved it entirely over to funding from 
the power sources. We've moved those two projects out of the 
appropriated funding into private funding.
    Senator Chafee. Well, no question, the economic program has 
been successful. You presented to me this document from TVA 
about the automobile industry. If I have it correctly, I 
believe there is a greater production of Japanese automobile 
companies in the State of Tennessee than in any State in the 
Nation, is that true?
    Mr. Hayes. I think there's probably more employees, other 
than possibly California. We're very proud of that. We have a 
great work force in the Valley, not only the manufacturing 
plants, but also support industries.
    Senator Chafee. I believe that when President Roosevelt 
conceived the idea of the TVA that he took George Norris of 
Nebraska down there, didn't he?
    Mr. Hayes. I think so, yes.
    Senator Chafee. That got the legislation through?
    Mr. Hayes. Right.
    Senator Chafee. Another bit of trivia. When I was growing 
up, there was a song they used to sing, ``She's so dumb, it 
really is a shame. She thinks Muscle Shoals is a boxer's 
name.''
    [Laughter.]
    Mr. Hayes. I'm glad Senator Sessions was out of the room.
    [Laughter.]
    Senator Chafee. Senator Baucus.
    Senator Baucus. Thank you, Mr. Chairman.
    Mr. Hayes, just following a bit the same line of 
questioning of the Chairman, did I hear you say TVA you think 
will phase out its need for Federal appropriations by the year 
1999?
    Mr. Hayes. We're phasing out Economic Development and the 
Environmental Research Center from appropriated programs.
    We have a proposal that you've probably heard of that was 
presented within the past couple of weeks that would phaseout 
all of TVA's appropriated programs, but this is a proposal and 
we've got a task force of 19 people from across the Valley, TVA 
employees, that are looking at this proposal, studying ways to 
either do TVA programs more efficiently with other agencies, or 
to possibly leave them as they are. Who knows what the task 
force will come back with.
    TVA has always been an agency of change. Since I've been at 
TVA, we've realigned the Environmental Research Center, 
realigned Economic Development. We've preached productivity for 
the nuclear program and fossil and hydro and the transmission 
system.
    This portion that we're looking at, the flood control and 
navigation and the land, stewardship, are the only programs 
that we haven't taken a look at and the proposal is to look at 
those areas. The proposal would have to have the cooperation of 
Congress, it would have to have the cooperation of the State, 
if it works, but we don't know what it's going to be because we 
have the task force looking at it.
    Senator Baucus. What is the role of TVA when this country 
moves to the degree that it does to deregulate power?
    Mr. Hayes. Deregulation, as you're aware, is an extremely 
complex issue. TVA right now serves power to 160 wholesale 
distributors, and approximately 67 direct-serve customers 
throughout the Valley. Those are large power loads, aluminum 
companies, paper companies, et cetera.
    We have, by legislation, a fence around TVA territory that 
borders several States and we can only sell power to 14 
companies that bordered us, that we bought and sold power from 
in 1959. So we have an opportunity to sell to those.
    Senator Baucus. Do you think it's a good idea to completely 
deregulate power in a way where TVA is part of that and treated 
the same way, that is TVA can buy and sell nationwide, but 
without the Federal subsidy?
    Mr. Hayes. If they're going to allow private companies to 
come inside the fence and take our customers, then we're going 
to have to be able to sell outside.
    Senator Baucus. And you think you're prepared to do that by 
the turn of the century?
    Mr. Hayes. I think we're prepared to do it today.
    Senator Baucus. Today, you're prepared to do that?
    Mr. Hayes. Yes. We're very competitive.
    Senator Baucus. Without subsidy?
    Mr. Hayes. Yes.
    Senator Baucus. Good. Thank you.
    Senator Chafee. For instance, Duke Power, they must sell in 
your area, don't they?
    Mr. Hayes. No, sir, not inside the fence.
    Senator Chafee. So you have a certain area that you say is 
inside the fence, wherever it is?
    Mr. Hayes. Yes.
    Senator Chafee. And that is solely TVA's?
    Mr. Hayes. That's solely TVA territory. We have 10-year 
contracts with our customers, with our wholesale customers, and 
these are rolling contracts every day, so they could come in 
and pick off a customer that's on that border. They can't come 
inside the fence, but Duke could pick off Murphy, NC, that 
borders Duke, but if the contract held, it would be 10 years 
before they could begin serving.
    We just lost Bristol, VA because although it was one of our 
160 customers, it was outside that fence and they did not have 
a 10-year contract with us. Their contract expires next 
January.
    Senator Chafee. It would be my hope, obviously, that you'd 
be able to end the subsidies totally and I encourage you to 
continue your work in that direction.
    Mr. Hayes. Thank you.
    Senator Chafee. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Let me ask a few questions, Mr. Hayes. I think it would be 
an opportunity now to clear up concerns and we hear about 
people who have jobs they've held for a long time who are 
getting nervous and rightly so. They'd like for us to speak 
clearly and effectively and sometimes we have to repeat 
ourselves to make sure the message gets out.
    With regard to the Environmental Research Center, the 
Federal funding for that is being reduced substantially and 
will be zeroed out in how many years, 2 more?
    Mr. Hayes. One more.
    Senator Sessions. One more year, it will be zeroed out, Mr. 
Chairman, and that agency will be standing on its own.
    Mr. Hayes. Yes.
    Senator Sessions. There is no plan, to your knowledge, and 
you have no plans to support, an effort to move that center 
from the Muscle Shoals area to anyplace else, is that right?
    Mr. Hayes. Let me just say to you and for the record, I'm 
committed and I think the other two board members are 
committed, to make the Environmental Research Center a success 
and we will make it a success. We don't have plans at all to 
move the Environmental Research Center from Muscle Shoals, AL.
    Senator Sessions. I've toured it and they are doing some 
remarkable research, Mr. Chairman, on how to convert waste to 
energy, to some of the best in the Nation; they have programs 
for very small towns, how they can convert waste and utilize 
it. They really are in the forefront, don't you think, Mr. 
Hayes, of environmental technology in America?
    Mr. Hayes. Absolutely. Especially in water areas, et 
cetera, yes.
    Senator Sessions. By the way, we talk here about clean air, 
I happened to be on an airplane a few weeks ago with the chief 
scientist at TVA who does their clean air work at this Center 
and talked to the chairman of the board at TVA. What is your 
best estimate now of the cost of the Tennessee Valley electric 
users of the new requirements of the Clean Air Act on TVA 
alone?
    Mr. Hayes. Our best estimate right now is about $2 billion.
    Senator Sessions. Mr. Chairman, Ms. Browner was here and I 
believe she estimated nationally this would be a $6 to $8 
billion cost to America. TVA alone is saying it may be $2 
billion for them, so obviously those costs will be passed on to 
the consumers and that will happen all over America.
    I think it points out your concerns that we need to be real 
careful about these clean air proposals.
    Next, on flood control, you have about 900 employees 
involved in resource management, flood control, maintaining the 
waterways and that sort of thing?
    Mr. Hayes. The resource group is about 900 and they cover 
all facets.
    Senator Sessions. I think what concerns a lot of people is 
that flood control and resource management are a part of every 
governmental resource development and if TVA doesn't do it, who 
will, and are we going to go through some situation in which 
all TVA employees are laid off and some other agency would 
bring in new people to do this work?
    Can you tell us what you are doing to make sure that if a 
transition from TVA occurs, that the people who are doing that 
now and doing a good job would have an opportunity to be 
retained?
    Mr. Hayes. I can give you my commitment that whatever the 
task force brings back, if they were to bring back a change, I 
certainly would not want to displace employees or hurt families 
in any way, I don't know what the task force is going to bring 
to us, I can certainly tell you that my commitment would be to 
work with these people to make sure they are not displaced.
    Senator Sessions. I had to step out for 1 minute. Did you 
explain the task force?
    Mr. Hayes. I did.
    Senator Sessions. That task force's mandate is to determine 
whether or not a transition is feasible and how to do it in 
such a way that would be least detrimental to the people, many 
of whom have given their lives to this effort.
    Mr. Hayes. At the least cost to the Federal Government and 
how it could be done most effectively.
    Senator Sessions. I would just like your commitment that 
you will do what you can as leader of this agency to make sure 
that no unnecessary displacements of the good and decent 
employees occurs?
    Mr. Hayes. I will give you that commitment.
    Senator Sessions. The Economic Development Program is 
something you took a lead in when you first came with the 
agency, did you not?
    Mr. Hayes. Yes, sir.
    Senator Sessions. Would you share with the chairman what 
kind of personnel reductions have occurred in just that agency 
in the last several years?
    Mr. Hayes. We had 264 people when I came 3 years ago and 
we'll be down to 60 by the time this phases out but we're still 
doing things more effectively. We're on the right path. We've 
gone from grants to loans and leveraging money, creating jobs.
    Senator Sessions. I think that's a real record of 
achievement to go from 200 and some employees to 60, Mr. 
Chairman, and Mr. Hayes has personally been the leader in that 
effort.
    With regard to economic development, you are committed, 
whether it's federally appropriated funds or not to continuing 
the Economic Development Program for the Tennessee Valley area?
    Mr. Hayes. You have my commitment and certainly it's not 
only an interest of mine but it's an interest of the rest of 
the board. They've been very supportive in all the economic 
development measures we've done throughout the Valley.
    Senator Sessions. Can you tell me and really speak to the 
employees of the Tennessee Valley Authority with regard to what 
they can expect when this committee reports, what kind of 
opportunities they will have during the process of this 
committee and afterwards to express themselves, and officials 
of Congress, what opportunities we'll have to be involved in 
that process?
    Mr. Hayes. From the first day when we announced this, we 
said we would have input from Valley stakeholders. Certainly 
that includes employees and Congress. We couldn't have a report 
that would be meaningful unless you had this input, so we'll 
have it.
    We want to work with Congress. We will work with Congress. 
We will work with all the stakeholders in the valley. So if 
you're talking about stakeholders, you're certainly talking 
about employees. TVA' employees are on this task force. They 
are employees of the Valley from Alabama to Kentucky, Memphis 
to east Tennessee.
    Senator Sessions. I think that's important because we do 
not need to get in a rush and get so busy and have some 
governmental regulation develop so that we end up going out and 
finding new people to do jobs that could be done better by the 
experienced people that are in those positions.
    I know you've got an efficiency burden and the whole 
Authority has done a remarkable job of improving efficiency. 
Did you state how much employee reduction has occurred in the 
last decade in the Tennessee Valley?
    Mr. Hayes. We're down to about 16,200 people from about 
35,000.
    Senator Chafee. In how many years, 10 years?
    Mr. Hayes. I think it's 10 years, yes, sir.
    Senator Chafee. That's extraordinary.
    Mr. Hayes. It's since the 1980's, the mid-1980's.
    Senator Chafee. From 32,000----
    Mr. Hayes. Thirty-five thousand to sixteen thousand.
    Senator Chafee. To 16,000?
    Mr. Hayes. Yes. Since I was here before you the last time, 
through voluntary outs and retirement programs, we've cut about 
3,000 people.
    Senator Sessions. It is a remarkable effort on Tennessee 
Valley Authority's part to reduce unnecessary expenditures and 
to increase productivity. As I told them, if they had not done 
that, I think this whole agency would be in jeopardy but they 
have responded aggressively to the request of Congress, the 
taxpayers who want more for their dollar, and you have a leaner 
and more healthy TVA, don't you, Mr. Hayes?
    Mr. Hayes. Yes, sir.
    Senator Chafee. I suppose some of that reduction in force 
has come about through operations that you previously were 
engaged in that now you've spun off in some fashion?
    Mr. Hayes. A lot of those jobs were in the Construction 
Program, but a lot of it has been in operations. We're very 
lean in operations, but in being lean, we certainly haven't 
forgotten safety.
    Senator Sessions. I just want to say there is a feeling 
sometimes by some of us on the Hill and people in the Valley 
that TVA is somewhat insensitive at times. It may not be fair 
but it is a perception out there. You're an open person and a 
person that's easy to talk to. I just want you to know that we 
want to be supportive; we think you've made some real progress 
and we want to make the Tennessee Valley Authority a 
productive, valuable part of the American economy.
    There was another question. Tell me about the Belafonte 
Facility.
    Mr. Chairman, there is a nuclear facility in Belafonte in 
Jackson County, AL that I believe nearly $4 billion was spent 
on it. One of the units is about 80 percent complete but 
because of regulations or other problems, it has been stopped 
and remains idle.
    It's remarkable. You go in it and it looks like it's ready 
to turn a switch and operate. It's that nearly complete. It's 
an investment that we simply cannot allow to go to waste.
    Can you tell us, Mr. Hayes, what thoughts you have about 
how to get that facility into production and not waste the 
investment that we have in it?
    Mr. Hayes. As you said, we stopped construction on that 
facility, active construction, in 1994. We now have, and have 
had for the past several months, a task team looking at the 
best way TVA can make that a productive asset. We're looking at 
coal, we're looking at coal/gas, we're looking at natural gas, 
and we've certainly not ruled out nuclear, with the right 
financial partners, but we would have to have the right 
partners to do that.
    We should have the report back by the end of November or 
the fall and we will be making a decision there, but it is an 
asset that we will turn into a productive asset.
    Senator Sessions. Is it your commitment that you're going 
to be working to turn that into a productive facility and not 
leave it idle?
    Mr. Hayes. It is my commitment.
    Senator Sessions. I would say this. I would not discount 
nuclear. It's so close to being a facility ready to operate 
that it's remarkable to me that whatever has happened, we've 
not been able to complete that.
    When we talk about particulate and ozone, I think our air 
would be better in that area if we did not use fossil fuels.
    Mr. Hayes. We're certainly looking at all aspects and 
looking hard, and working with people around the country 
looking at partners.
    Senator Sessions. Just a question of study and care and I 
hope you will give it that. We've simply got to get that 
facility into production and I would encourage you to do 
everything you can to do that.
    Thank you.
    Senator Chafee. Thank you, Senator.
    I must say it is dazzling to me these tremendous 
expenditures put into these plants and then they stop the 
construction. That happened in Long Island, then Seabrook had a 
terrible battle and finally Seabrook sent it away.
    What happens? Why did you stop? Senator Sessions indicated 
you put some $2 billion into that place?
    Mr. Hayes. I think it's closer to $4 billion.
    Senator Chafee. Even for somebody from Washington, that's a 
considerable sum of money.
    Mr. Hayes. It's a lot of money.
    Senator Chafee. So what went wrong, what happened?
    Mr. Hayes. When I came on the TVA board, the construction 
had phased down and it was a financial decision. We were 
looking at a $30 billion debt, a cap on the debt, we were 
looking at stiff regulations. We had two facilities, Watts Bar 
and Belafonte. Watts Bar, if I recall correctly had been under 
construction for some 20 years.
    Senator Chafee. Is that a nuclear plant too?
    Mr. Hayes. Yes, sir, and it was 98 percent complete and the 
board made a commitment to complete that plant. We completed it 
and we got it on-line last year. We brought that plant on-line 
and Browns Ferry III back on-line, two in 1 year.
    Now we're looking to see what we can do at Belafonte. When 
you talk about 80 percent, certainly my people tell me, Senator 
Sessions, it's one of the top facilities around but it's 80 
percent of an unknown number. It's very difficult to tie that 
figure down on what it will cost to complete.
    Senator Chafee. Fine. Do you have any other questions, 
Senator?
    Senator Sessions. I think not, Mr. Chairman. I just think 
the Tennessee Valley Authority has grown out of the people, it 
was created by the people and the taxpayers, and it must be 
responsive, it must be sensitive to the thousands of people who 
have given their lives to it.
    You've made cuts, you've demonstrated that you're not going 
to pay people to do work that's not productive, but there's 
work that has to be done in keeping the channel operating, the 
safety there, the environment secure in that great region. We 
need to be sure that we are sensitive to the needs of the 
employees who have supported it so long.
    Mr. Hayes. You have my commitment.
    Senator Sessions. Thank you.
    Senator Chafee. Thank you very much, Mr. Hayes. You're 
excused if you wish.
    Now we will consider the trustees nominated for the Mo 
Udall Foundation. Both have impressive backgrounds.
    The Foundation was established by Congress in 1992 to honor 
Congressman Mo Udall for his service to the Nation. Mo Udall 
was a famous wit amongst other things and sought the Democratic 
nomination for President. He was a very strong environmental 
leader, a defender of rights of Native Americans.
    The Foundation operations scholarship and fellowship 
programs for outstanding U.S. students who are interested in 
pursuing careers in environmental policy and as I understand 
it, conflict resolution, health care, and Native American 
public policy.
    Ms. Espinosa is the current president of The Alliance for 
Transportation Research Institute at the University of New 
Mexico. You have served as both secretary of Transportation and 
secretary of the Environment for the State of New Mexico, and 
given a substantial amount of your free time as a mentor to 
students living within disadvantaged communities in New Mexico 
and California.
    Mr. Rappoport served with the Udall Board for the past 2 
years and has a great deal of experience with water and other 
natural resources for the past 23 years. He's served in a 
variety of leadership capacities for the Salt River Project, a 
mammoth water and electricity project in Phoenix.
    I might add Mr. Rappoport is a veteran of Capitol Hill 
having worked as a House Legislative Assistant in the early 
1970's.
    Are there any comments either of you want to make? Ms. 
Espinosa?

STATEMENT OF JUDITH M. ESPINOSA, NOMINATED BY THE PRESIDENT TO 
  BE A MEMBER OF THE BOARD OF TRUSTEES OF THE MORRIS K. UDALL 
  SCHOLARSHIP AND EXCELLENCE IN NATIONAL ENVIRONMENTAL POLICY 
                           FOUNDATION

    Ms. Espinosa. Thank you, Mr. Chairman and Senator Sessions.
    It's an honor for me to be here and to have been nominated 
for the Board of Trustees of the Morris K. Udall Foundation.
    I was very pleased when that occurred and when I was able 
to see that I might be able to lend some of my background to 
the Foundation and to the work that it did.
    I have talked to a lot of students over the years. I hate 
to say how long it's been that I've been working in the area of 
recruiting students into the health sciences and public health 
and environmental arenas, but it has been a long time.
    I find that students don't think about the issues of 
community and public health and environmental health and the 
environment too much when they're first going to school, so I 
always try and talk to them about the importance of that.
    I've worked a lot in disadvantaged communities. I've also 
worked with nontraditional students, women who have gone back 
to school after many, many years of being at home.
    Senator Chafee. You do all of this through your University 
of New Mexico job?
    Ms. Espinosa. Not at this time, but I have in the past. 
I've worked at the College of Nursing as an instructor back in 
the early 1970's. While I was nursing there, I was also doing 
recruitment for the College of Nursing with minority studies 
and nontraditional students. We were looking at recruiting more 
minority students into the College of Nursing as well as older 
students who wanted to go back to school.
    I also have done that in California. I worked in the Los 
Angeles area for many years while I was out there, both when I 
was getting my Master's degree as well as after that and 
working with students in Los Angeles to have them look at the 
health sciences and the environmental sciences if they were 
thinking about going to school, so I've done this off and on in 
my career.
    We have embarked on a program at the Alliance for 
Transportation Research Institute looking at recruitment of 
students into the technology and transportation and 
environmental sciences, and we will be starting that hopefully 
sometime this summer.
    We hope to be working with the Department of Energy which 
I've had conversations with recently on the work they would 
like to do to get students looking at technology applications 
and the sciences that will advance technology and 
transportation systems in this country.
    Senator Chafee. Mr. Hayes, before all of you leave, I have 
a couple of standard questions that we ask of all nominees, so 
I'll address this to all three of you.
    Are you willing, at the request of any duly constituted 
committee of the Congress, to appear in front of it as a 
witness?
    Mr. Hayes. Yes.
    Senator Chafee. Yes?
    Ms. Espinosa. Yes, sir.
    Mr. Rappoport. Yes.
    Senator Chafee. OK. Do you know of any matters which you 
may or may not have thus far disclosed which might place you in 
any conflict of interest if you're confirmed in this position? 
Do you know of anything?
    Ms. Espinosa. No, sir.
    Mr. Hayes. Not at all.
    Mr. Rappoport. None whatsoever.
    Senator Chafee. All right, fine. Mr. Hayes, that's fine for 
you.
    Senator Chafee. Mr. Rappoport, do you have anything you 
want to say?
    Mr. Rappoport. I do.

 STATEMENT OF D. MICHAEL RAPPOPORT, NOMINATED BY THE PRESIDENT 
TO BE A MEMBER OF THE BOARD OF TRUSTEES OF THE MORRIS K. UDALL 
  SCHOLARSHIP AND EXCELLENCE IN NATIONAL ENVIRONMENTAL POLICY 
                           FOUNDATION

    Mr. Rappoport. Thank you, Mr. Chairman, particularly for 
those kind words of introduction.
    I also would like to express my appreciation to Senator Kyl 
and Senator McCain for their letters of recommendation as well.
    Senator Sessions, thank you for adjusting your schedule to 
be here.
    With your permission, Mr. Chairman, I would request that my 
prepared statement be placed in the record.
    Senator Chafee. Definitely. You can give us a summary of 
it.
    Mr. Rappoport. I very much appreciate the committee 
scheduling this opportunity for me to present myself as a 
nominee for a second term on the Udall Foundation Board of 
Trustees.
    If I may, I would like the record to show that Terry 
Bracey, who is the hardworking chairman of the Udall 
Foundation, is in the audience. In large measure, much of the 
success, I will summarize today, is due to Terry's leadership 
and commitment to the Udall Foundation.
    We welcome Judith Espinosa and her unique background coming 
on the Foundation and would certainly urge you and your 
colleagues to favorably report her nomination to serve as 
trustee.
    My association with Mo Udall extends back 30 years to a 
time when he was instrumental in building support for the 
Central Arizona Project, which as you may recall is a large 
water and energy facility in the State of Arizona.
    In the early years of our association, the interests that I 
represented were not always in total agreement with those so 
effectively advocated by Mo Udall, but throughout the remainder 
of our association, I had the good fortune to serve either as 
chair or a member of one of Mo's business advisory committees, 
on several of his energy and water task forces, as well as on a 
number of his reelection committees.
    Like so many others over the years, I came to admire Mo 
Udall's sense of civility, his ability to fashion consensus, 
and above all, his integrity and commitment to public service.
    When Congress established the Udall Foundation, it gave 
special recognition to those qualities. Specifically in 1992, 
Congress authorized to be appropriated $40 million for the 
Udall Foundation. About half of that amount has been 
appropriated to date. The Foundation administers those funds 
and in my prepared remarks, several of the purposes for which 
those funds are expended are identified.
    I am privileged to serve as the chairman of the 
Foundation's Management Committee and in that capacity, I have 
a variety of responsibilities including supervising the 
Foundation's investment portfolio and budget.
    I am extremely pleased to say today that as in our 1996 
annual report, we have thus far awarded 55 outstanding college 
juniors and seniors scholarships. They represent colleges and 
universities from 38 States and Puerto Rico. This next year in 
1997, we anticipate awarding 70 undergraduate scholarships and 
2 graduate fellowships.
    Also in 1996, we implemented the first summer internship 
program for Native American students. They had the opportunity 
to serve in both House and Senate offices, as well as in the 
White House. I particularly wanted to express appreciation to 
Senator Baucus for placing one of our interns last year and 
hope that you will all have an opportunity to visit some of our 
interns this summer.
    The Foundation works very closely with the Udall Center 
which is located at the University of Arizona. In 1996, we co-
sponsored an environmental health issues seminar of some note, 
and in 1997, we will host in April the Environmental Conflict 
Resolution in the West Conference, again in conjunction with 
the Center.
    In sum, the Foundation's purpose and plan is best captured 
by Mo's own words of a few years ago, ``America is never done 
like a poem or a painting.'' I am sure Mo Udall believes, as we 
at the Foundation do, that we are well on our way to helping 
future generations care enough to change things.
    I would very much appreciate the opportunity to serve a 
second term as a Udall Foundation Trustee to continue to help 
meet that challenge.
    I am prepared to answer any questions the committee may 
have at this time.
    Thank you.
    Senator Chafee. Thank you very much, Mr. Rappoport.
    I briefly looked over your annual report here and tell me 
this. Is there an annual appropriation of some modest sum? What 
do you get annually?
    Mr. Rappoport. Mr. Chairman, originally $40 million was 
authorized. During the early years, 1992 and 1993, a total of 
$19.6 million was actually appropriated.
    Senator Chafee. I see.
    Mr. Rappoport. We understand, however, that the President's 
budget this year includes I believe $2 million per year for the 
next 5 years to be added to the Foundation corpus.
    Senator Chafee. Do you raise private money also?
    Mr. Rappoport. We are authorized to do so. We have not yet 
commenced a solicitation program, but it is our intention in 
the next several years to be far more aggressive in that area, 
yes, sir.
    Senator Chafee. How long are the terms? How long is each 
term?
    Mr. Rappoport. When Congress established the Foundation, it 
staggered the initial terms of three members at 2 years, three 
at 4 years, and three at 6 years. After the initial rollover, 
we are now appointed and would serve for a period of 6-year 
terms.
    Senator Chafee. I see. Do you get paid? Do the trustees get 
paid?
    Mr. Rappoport. No. We are authorized to be reimbursed for 
expenses and those funds come directly out of the Foundation's 
operating budget.
    Senator Chafee. But you don't get anything in addition to 
the expenses?
    Mr. Rappoport. No, sir.
    Senator Chafee. So it's a labor of love.
    Mr. Rappoport. Indeed in many ways.
    Senator Chafee. I think it's very impressive and I was 
interested that apparently one of your students was an intern 
with Senator Baucus?
    Mr. Rappoport. Yes, sir, last summer. I'm not sure which 
tribe but it was quite an experience for the intern.
    Senator Chafee. I think that's a great experience and maybe 
we ought to look into that and see if we can't do something 
likewise. I don't want to make any commitments because I just 
don't know what the situation is, but I'll have my staff get in 
touch with your folks.
    Mr. Rappoport. Thank you, Mr. Chairman.
    Senator Chafee. Fine.
    Senator Sessions.
    Senator Sessions. I just want to congratulate you, Ms. 
Espinosa and Mr. Rappoport for being nominated to this 
prestigious position. I think it is indeed an honor to serve on 
the Morris K. Udall Foundation. That's the kind of thing that 
those who have been interested in the environment over the 
years certainly would be honored to do.
    I'll also note that they play a pretty fair game of 
basketball in Arizona. My hometown team was leading them 10 
points last night with 5 minutes to go and it evaporated.
    [Laughter.]
    Senator Sessions. I didn't get much sleep last night, I had 
a little bit of ingestion, but it was a great game and a great 
team.
    I just want to say on behalf of the Senate, I know you will 
do an outstanding job and we're pleased to have you in 
Washington.
    Senator Chafee. Let me just say it's my intention to report 
these nominations out as soon as we can and get them moving to 
the floor, so unless there is something unsuspected which 
arises, I would expect we could get all these nominations to 
the floor by next week and hopefully get the whole process 
completed before recess. We go on recess a week from today and 
that would be my objective.
    Thank you all very much for coming.
    That completes the hearing.
    [Whereupon, at 10:24 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
   Prepared Statement of Johnny H. Hayes, Director, Tennessee Valley 
                               Authority
    Mr. Chairman, and members of the committee. I appreciate this 
opportunity to come before you today. I am grateful to President 
Clinton for the privilege of serving on the TVA Board for the past 3\1/
2\ years. and I'm honored by his confidence in nominating me for a full 
term.
    I want to thank Senator (Bill) Frist for his introduction, and all 
the members of the Tennessee Valley delegation who have supported me 
and my Board colleagues in our work to make TVA a more valuable asset 
for our nation. I also want to thank the members of this committee for 
your guidance and support, and with your approval I will continue 
working to ensure that TVA remains a productive national asset.
    My experience on the Board reaffirms my belief in the value of TVA 
as an effective force for supporting and promoting quality economic 
growth. TVA continues to develop and explore new approaches for 
producing and delivering electricity more reliably, efficiently, and 
with less impact on the environment. One example is the installation of 
a state-of-the-art electricity transmission device that maintains a 
constant voltage to our customers.
    Today, the pending deregulation of the electric utility industry 
presents an opportunity to make TVA's operations even more efficient 
and to use our extensive experience in meeting reliability and 
environmental challenges that affect the utility industry. For example, 
we have compiled an excellent record of meeting more stringent clean 
air standards, while keeping our rates stable for the past 10 years. 
TVA intends to be successful in a deregulated utility market, and I am 
proud of the steps we have taken during my tenure to prepare for 
success in the future.
    Our preparations include improving the performance of our power 
system and taking steps to phaseout appropriated funding for the 
Environmental Research Center and our economic development programs. We 
recently created a task team to examine the operations of our other 
tax-supported non-power programs. The team's mission is to explore 
funding and operational alternatives and determine the most efficient 
approach for continuing these programs, whether it is under TVA or 
another agency. The team is scheduled to report its findings and make 
recommendations to the Board in September.
    I have been fortunate to serve with fellow Board members who share 
my desire to build a forward-thinking, well-managed organization. The 
record is one of progress through initiatives that challenge the 
innovative potential of the people at TVA. As always, our most valuable 
resource is the dedicated force of professionals and skilled people who 
continue to build on TVA's legacy of service.
    Their work has earned TVA national awards and recognition for 
quality improvements and innovative approaches to reduce costs. Since 
joining the Board in July 1993, one of my top priorities has been to 
ensure that TVA is effectively supporting economic growth by producing 
a competitive and reliable supply of power for the Tennessee Valley.
    Briefly, here are some of the steps that we have taken:
    We adopted TVA's first integrated resource plan that analyzes TVA's 
options for meeting the energy needs of the Tennessee Valley for the 
next 25 years.
    We completed our nuclear construction program by bringing two units 
into service and making a decision to cancel completion of three other 
nuclear units. These actions brought to a close 28 years of nuclear 
construction.
    We adopted an aggressive fiscal management plan that has allowed us 
to cap TVA's debt below the limit authorized by Congress. As a result, 
TVA will not increase its debt this year for the first time in 35 
years. The next step is the adoption of a plan now being formulated 
that will enable TVA to begin reducing its debt.
    We have kept power rates stable for the eighth, ninth and tenth 
consecutive years by maintaining a strong emphasis on controlling costs 
and improving efficiency. Keeping power rates steady has contributed to 
the growth of our region and the nation's economy.
                        power system performance
    Last year, TVA ranked second lowest in production costs among the 
50 largest electric utilities in the nation. While keeping costs under 
control, our power system has continued to set new performance and 
efficiency records and maintain the reliability that our customers 
expect. In January, TVA met its highest demand ever for electricity on 
a single day, providing our customers with 26,670 megawatts. This past 
year, the TVA power system generated a record of almost 149 million 
megawatt-hours of electricity.
    Mr. Chairman, when I and TVA Chairman Crowell were here 3 years 
ago, this committee expressed concern about the performance of our 
nuclear program. I want to take this opportunity to report that our 
nuclear program is now performing at a high level, in both safety and 
productivity.
    Last year, TVA became the first utility to bring two nuclear units 
into service at the same time. This included the start of commercial 
operation for Unit I at Watts Bar. The unit's performance ranks among 
the best-ever for a first-year plant. A recent assessment by the 
Nuclear Regulatory Commission places it in the top 25 percent of all 
nuclear units in the United States. Overall, in the past 2 years, 
nuclear production costs are down 40 percent and nuclear generation is 
up 50 percent. I also want to point out that when I joined the Board, 
two nuclear units were on the Nuclear Regulatory Commission's watch 
list for increased attention. Today, no TVA units are on the list.
    The power system is able to set new performance records and hold 
rates steady because we have an excellent management team that 
emphasizes safety, quality, and efficiency. In the past 3 years, we 
also focused on keeping TVA's staffing levels competitive. In 1994 we 
completed a major voluntary downsizing that reduced the workforce by 
2,600 positions and saved more than $100 million annually.
    Despite major workforce reductions, there has been no significant 
change in minority representation, which remains at almost 12 percent. 
In 1995, we set a goal of 40 percent women and minorities among new 
hires, and we exceeded that goal by reaching 54 percent. Collectively, 
our emphasis on improving performance is keeping TVA at the forefront 
of efficiency in government and the utility industry.
    Equally important to the success of TVA's power system are the 
relationships we maintain with our customers. During my first 18 months 
on the Board, I visited with each of the 160 local utilities served by 
TVA, and I have worked to address their concerns as the Board moves 
forward to meet the challenges of deregulation.
                          environmental record
    Mr. Chairman, earlier I said that TVA has compiled a progressive 
environmental record. We are conducting an aggressive Clean Water 
Initiative that includes work to increase the amount of dissolved 
oxygen in the tailwaters below our dams, and a comprehensive effort to 
reduce the amount of ground pollution that reaches our streams through 
runoff. The record includes TVA becoming the first utility to join the 
Department of Energy's Climate Challenge program. This is a voluntary 
program to reduce greenhouse gas emissions. Under TVA's commitment, we 
will avoid producing 22.7 million tons of greenhouse emissions, which 
is the largest voluntary reduction by a U.S. utility. Overall, TVA has 
spent more than $2 billion on air pollution controls and spends more 
than $350 million per year to meet clean air standards.
    In the coming era of deregulation, I am confident that TVA can 
provide leadership in meeting environmental quality and reliability 
commitments while keeping the price of electricity as an economic 
advantage for the nation. I look forward to playing a role in achieving 
this vital mission.
                          economic development
    When I joined TVA, one of the major areas that needed attention was 
economic development. Over the years, it had become a fragmented effort 
with no clear internal lines of responsibility and no clear 
accountability for results. Using my experience as the State 
Commissioner of Economic and Community Development for Tennessee, I 
made economic development my personal priority.
    In the past 3 years, I am proud to report that economic development 
at TVA has been transformed from a collection of random grants into a 
system of loans focused on creating jobs and new growth. Overall, four 
major branches of economic development work were consolidated into one 
organization that works to create jobs and to earn a return-on-
investment for TVA. By creating a revolving loan fund for economic 
development rather than issuing grants TVA is making economic-
development investments that make business sense. Since 1994, the loan 
funds have been used to help leverage more than $1 billion in new 
capital investments and have directly supported the growth of 300 
companies that will employ more than 12,000 people.
    I would like to conclude by emphasizing that I am committed to 
seeing TVA operate as a business and as an effective public agency that 
is working to strengthen the economy of the region and the nation. I 
have spent my life in the Tennessee Valley, first as a private citizen 
who owned a successful business, and now as a public servant who 
believes that government can also be operated as a successful business. 
With your approval, I will continue working to operate TVA as a 
business that generates value for its customers and earns a return-on-
investment for the United States of America.
                                 ______
                                 
 Responses by Johnny Hayes to Additional Questions From Senator Inhofe
    Question 1. As you mentioned in your prepared testimony, the 
Tennessee Valley Authority currently receives appropriated funding for 
both the Environmental Research Center and the economic development 
programs. What percentage of these program funds are derived from 
sources other than direct Congressional appropriations? In addition to 
these appropriated funds, what other funding (both Federal and 
otherwise) does the TVA receive for environmental programs?
    Response. Sixty-four percent of Economic Development's annual 
funding comes from power program funds. Fifty-two percent of the 
Environmental Research Center's funding in FY97 is projected to come 
from sources other than direct Congressional appropriations.
    In addition to the $106 million that TVA receives from direct 
Federal appropriations, additional funding is received for particular 
environmental programs including:
    <bullet> Natural Resource Stewardship--$35,000 cost share from the 
Tennessee Wildlife Resources Agency, the state of Alabama, and the U.S. 
Fish and Wildlife Service for operation of dewatering area pumping 
stations.
    <bullet> River Action Teams--TVA partners with other agencies, 
local governments, and individuals to achieve environmental successes 
in its Clean Water Initiative. Often times agency funds are pooled to 
evaluate, develop, and implement action plans to address water quality 
problems in the Valley. As an example, TVA is leading an effort to 
improve water resource conditions in the Hiwassee basin that includes 
five other Federal agencies, three state agencies, and several local 
governments. Other examples include funding from the U.S. Geological 
Survey to perform environmental evaluations in the upper-Tennessee 
basin, from the Environmental Protection Agency (EPA) to conduct 
environmental evaluations, and from state agencies for habitat 
enhancement efforts. Total annual funding received for these activities 
is less than $200,000.

    Question 2. In addition to these appropriated funds, what other 
Federal subsidies benefit the TVA?
    Response. TVA does not receive any Federal subsidies. The Federal 
appropriations that TVA receives each year are used solely for its 
nonpower programs. TVA's electric operations are totally financed from 
ratepayer revenues.

    Question 3. As you mentioned in your testimony, the TVA is studying 
ways to phase out its ``tax-supported-non-power programs.'' If these 
programs are phased out, is the TVA considering the disposition of 
physical assets purchased or supported with Federal taxpayer dollars?
    Response. TVA's proposal recommends that the Appropriations Task 
Force study ways in which Federal appropriations could be discontinued 
to TVA after FY98. The proposal suggests that the study will look at 
transferring responsibilities for essential programs to other agencies. 
It also directs the Task Force to review programs that could be 
discontinued after FY98. The proposal does NOT recommend the 
elimination of essential public services or the discontinuation of 
programs that Congress and/or the public deem desirable.
    The Task Force may in the report of its study describe transfer of 
lands and facilities to other local, state or Federal agencies. 
Decisions for the ultimate use of TVA physical assets purchased or 
supported with Federal taxpayer dollars requires NEPA review and 
Congressional approval.

    Question 4. I understand a task force has been created to study 
elimination of these non-power programs. What are some of the 
preliminary proposals as to what to do with these programs? In your 
testimony, you mention shifting their responsibilities to other 
agencies. Does this simply shift the Federal financial burden to 
another agency rather than the TVA?
    Response. The Appropriations Task Force has had two meetings and is 
currently framing the issues that will be presented for public 
consultation. There are no preliminary proposals although the public 
consultation workshops may discuss the tradeoffs in efficiencies among 
potential alternative public service providers. We currently don't have 
any estimates of what it would cost other agencies to perform essential 
integrated resource management services. If other Federal agencies 
become the service provider, there would be a financial burden for the 
cost of providing those services.

    Question 5. Critics of the TVA have argued that Federal 
appropriations indirectly subsidize the power programs. Private 
producers, for example, may have to absorb more costs as a precondition 
to their FERC license. Other utilities provide economic development and 
environmental services without Federal assistance. Does this place the 
TVA at a unique competitive advantage in the event of utility 
deregulation?
    Response. Federal appropriations are not used, directly or 
indirectly, to subsidize TVA's power program. The responsibilities and 
costs incurred by TVA in conducting its hydropower and environmental 
activities are comparable to investor-owned utilities and are funded by 
power revenues. TVA, in accordance with the provisions of the TVA Act, 
allocates the costs of operating its hydro facilities based on the 
benefits received by the power and nonpower programs. TVA's power 
program also conducts economic development activities and TVA has 
proposed to end all appropriations funding for economic development. 
TVA has no competitive advantage relative to other utilities.
                                 ______
                                 
 Responses by Johnny Hayes to Additional Questions From Senator Chafee
    Question 1. Mr. Hayes, we met a few weeks ago and discussed the 
strong role that the TVA has played in the Tennessee Valley boosting 
the economy of the TVA region. Times are changing and it appears that 
the agency is making a big push to streamline and to operate more like 
a business than a Federal agency. While I think the proposal to 
eliminate Federal funds for TVA programs is a good start, there is 
still the larger problem of the $28 billion dollar debt. Can I get a 
commitment that if confirmed, you will pursue a substantial and 
expeditious reduction of this debt?
    Response. Yes. We are confident that TVA will be able to make 
substantial reductions in its debt over the next several years. In 
fact, for the first time in 35 years, TVA will not increase its debt in 
fiscal year 1997. This is now possible because we have completed the 
major nuclear construction work required to bring two nuclear units 
into service in fiscal year 1996, and taken actions to control costs in 
all areas of TVA. TVA plans to meet its future power needs by entering 
into arrangements such as partnerships, and purchase agreements with 
others, which will reduce capital requirements for new capacity.

    Question 2. Please describe TVA's major environmental 
accomplishments over the last 3\1/2\ years. If confirmed, what 
additional environmental accomplishments do you hope to advance during 
your next term?
    Response. Highlights of Accomplishments:

        L  In 1996, TVA celebrated the completion of our ambitious 
        river system aeration program that significantly increases the 
        dissolved oxygen content in tailwaters below TVA's hydropower 
        dams. This ambitious and totally voluntary program to improve 
        aquatic habitat was paid for with power funds as an act of 
        environmental responsibility for the impacts of TVA's dams on 
        fisheries, water quality and aquatic vegetation.
        L  Our business management system developed over the last 3 
        years has benefited the environment by incentivizing measurable 
        improvements and increases in activities that improve 
        environmental standards at plants across the Valley. To name a 
        few: we voluntarily removed all underground storage tanks; 
        we've increased the recycling of coal byproducts and are 
        transferring those technologies to the private sector for 
        environmental improvements in surrounding industries; we've 
        invested in low polluting burners around the Smoky Mountains; 
        we've initiated pilot programs for burning coals more 
        efficiently; and we have a very successful environmental 
        training program that has consistently decreased the cumulative 
        impacts of small, polluting events that would require remedial 
        action.
Next Term Accomplishments
    In my next term I would continue to serve as a steward of the 
Tennessee Valley by ensuring continued integration of resource 
management activities and the current balance of outputs and 
environmental protection. Any disaggregation of the resource management 
system would negatively impact the whole of the River basin.
    I will ensure the continued, voluntary initiation of activities 
that improve the efficiency with which we use fuel resources, and will 
support continuation of the successful Clean Water Initiative and the 
River Action Teams that promote watershed health. I would also lead the 
Shoreline Management Initiative to a successful conclusion by 
implementing the first comprehensive shoreline management policy on any 
major American river. The development standards outlined in this policy 
will chart a course for balanced river front development for the 
foreseeable future. In addition, I would like to see the environmental 
research and technology development at the Environmental Research 
Center transferred as widely as possible through partnerships and sales 
of unique environmental and resource management services.*
---------------------------------------------------------------------------
    *The Committee may not be aware that TVA was the lead contractor in 
the wholly successful decontamination and decommissioning of the Rocky 
Mountain Arsenal nerve gas plant in Colorado.
[GRAPHIC] [TIFF OMITTED] TH043.027

[GRAPHIC] [TIFF OMITTED] TH043.028

[GRAPHIC] [TIFF OMITTED] TH043.029

[GRAPHIC] [TIFF OMITTED] TH043.030

[GRAPHIC] [TIFF OMITTED] TH043.031

[GRAPHIC] [TIFF OMITTED] TH043.032

[GRAPHIC] [TIFF OMITTED] TH043.033

[GRAPHIC] [TIFF OMITTED] TH043.034

 Testimony by Judith M. Espinosa Presidential Nominee to the Morris K. 
                   Udall Foundation Board of Trustees
    Mr. Chairman and Members of the Committee, I am honored to appear 
before you as a nominee for a position on the board of trustees of the 
Morris K. Udall Foundation. I am Judith M. Espinosa, from Albuquerque, 
New Mexico where I serve as the Acting President of the Alliance for 
Transportation Research Institute at the University of New Mexico.
    The Morris K. Udall Foundation was established by the Congress in 
1992, in honor of Congressman Udall and his lifelong work in the 
beneficial use, enjoyment, and exploration of our nation's natural 
resources. The trustees are appointed to set the priorities of the 
programs outlined by Congress when Public Thaw 102-259 was passed 
creating the Foundation. Congress charged the Foundation and its 
trustees with increasing awareness and understanding amongst our 
citizens of the ``* * * role of the environment, public lands and 
resources in the development of the United States.'' Truly, this was a 
recognition by our legislative leadership of the importance of our 
environmental and natural resources to the sustainability of our 
national assets and the responsible use of them by those who follow us.
    It is significant to me that you are considering my nomination 
today, because I have dedicated most of my professional activities to 
work in the health sciences, environmental/public health sectors, 
natural resources conservation, and environmental protection program 
administration. I now serve on the Board of the National Wildlife 
Federation, the largest grassroots conservation organization in the 
United States founded in 1936. NWF stands for a balanced approach 
between the need to use our natural resources for the benefit of our 
people and the need to conserve them for future generations. I believe 
that Congressman Udall took this same approach in his public work in 
environmental policy; I will be proud to sit as a trustee on the 
Foundation to carry on this message.
    Of importance in carrying forth the purposes of the Foundation as 
enumerated by Congress is the scholarship and fellowship awards given 
to graduate and undergraduate students in our colleges and 
universities. Utilizing our student population to ``* * * identify 
critical environmental issues * * * '' and provide educational outreach 
through their work is the legacy which we leave for the sustainability 
of our environmental assets.
    Throughout my career, a good deal of my volunteer time has been 
spent in the recruitment of students into environmental health, policy 
and science fields. Most of my mentoring with students has been within 
disadvantaged and ethnically diverse communities in New Mexico and 
California. So, I was particularly pleased to see that Native American 
and Alaska Native health care issues were a strong part of the 
Foundation's work. To sit as a trustee on the Udall Foundation, which 
rewards excellence for students with interests in environmental policy 
and sciences, will allow the foundation to utilize my skills and 
knowledge in promoting future environmental stewards. My experience in 
working with ethnically diverse and non-traditional students will serve 
to provide a distinct view on the scholarship and academic awards 
provided through the Foundation.
    One of the most exciting activities which the Foundation promotes 
is environmental conflict resolution. Federal, state, and tribal 
agencies have been increasingly involved in lawsuits challenging their 
regulatory actions. How much better to resolve the differences out of 
the courtroom where only one party is the winner and move to a 
mediation process built around recognizing the needs and values of all 
parties involved. Congressman Udall was a consensus builder, and the 
Foundation will carry on this approach to environmental disputes and 
issue resolution. I endorsed this approach of reaching a mediated 
consensus during my tenure as New Mexico's Environment Secretary. As 
Chair of both the Water Quality Commission and the Hardrock Mining 
Commission, regulations were adopted only after several months of 
negotiations between over six different state agencies and most of the 
large industries and businesses in the state. I used public comment and 
participation as a tool to direct both the state's policy framework and 
compliance criteria for the regulated industry. My experience with 
conflict resolution processes will be a compliment to the Foundation 
Board of Trustees future plans to develop forums for resolving issues 
critical to our country's use of its natural resources.
    Mr. Chairman, I thank you for this wonderful opportunity to present 
my testimony before the Committee. I will be pleased to answer any 
questions you may have.
[GRAPHIC] [TIFF OMITTED] TH043.036

[GRAPHIC] [TIFF OMITTED] TH043.037

[GRAPHIC] [TIFF OMITTED] TH043.038

[GRAPHIC] [TIFF OMITTED] TH043.039

[GRAPHIC] [TIFF OMITTED] TH043.040

[GRAPHIC] [TIFF OMITTED] TH043.041

[GRAPHIC] [TIFF OMITTED] TH043.042

[GRAPHIC] [TIFF OMITTED] TH043.043

[GRAPHIC] [TIFF OMITTED] TH043.044

[GRAPHIC] [TIFF OMITTED] TH043.045

[GRAPHIC] [TIFF OMITTED] TH043.046

[GRAPHIC] [TIFF OMITTED] TH043.047

[GRAPHIC] [TIFF OMITTED] TH043.048

[GRAPHIC] [TIFF OMITTED] TH043.049

[GRAPHIC] [TIFF OMITTED] TH043.050

[GRAPHIC] [TIFF OMITTED] TH043.051

[GRAPHIC] [TIFF OMITTED] TH043.052

[GRAPHIC] [TIFF OMITTED] TH043.053

[GRAPHIC] [TIFF OMITTED] TH043.054

  Response by Judith M. Espinosa to Additional Question From Senator 
                                 Chafee
    Question. One of the missions of the Udall Foundation is 
environmental conflict resolution. If confirmed, how do you plan to 
utilize your experience and interests to contribute to this important 
mission?
    Response. I believe that one of the most important functions of the 
Udall Foundation is the promotion of environmental conflict resolution. 
Increasingly we have seen federal, state and tribal governments 
challenged on their environmental or natural resources regulatory 
actions in courts of law. While these challenges may have a legitimate 
basis to bring a legal action, we must begin to provide a forum whereby 
the parties can resolve their differences out of the court room and 
into a resolution process built around recognizing the values and needs 
of all parties.
    I have held several professional public service positions that were 
primarily regulatory in nature. As Secretary of Transportation for New 
Mexico, my Department had primary authority for collection of fees/
taxes from the highway and aviation user communities. Enforcement of 
regulations on heavy vehicles and trucks was a major duty. Flexibility 
in the operation of our agency's regulatory structure was a strong 
policy of mine as Transportation Secretary. I negotiated a new scheme 
of vehicle permitting and operation with the oil and gas industry, 
mining industry and other owners of heavy vehicles. A simpler and more 
efficient scheme of permitting and user fees was devised which is 
currently in use today.
    I also have endorsed a conflict resolution approach as the Manager 
of the inspection/maintenance program in Bernalillo County. When I took 
the position, the City of Albuquerque and the County were under US EPA 
sanctions for non-compliance with Clean Air Act standards. I negotiated 
and designed a new vehicle emission program between the City of 
Albuquerque, the County of Bernalillo and several hundred businesses 
which would be doing the inspections under the regulatory scheme. It 
was accepted by EPA as a very progressive program in this region.
    As New Mexico's Environment Secretary and chair of both the NM 
Water Quality Control Commission and the NM Hardrock Mining Commission, 
regulations were adopted only after several months of negotiations 
between several state agencies and most of the large industries and 
businesses in the state. The NM Hardrock Mining Law, when being adopted 
by the Legislature, has been an extremely contentious process. The use 
of a mediated regulatory scheme left all the parties with a hand in 
setting the compliance framework.
    I have often used public comments and participation as a tool to 
direct the state's policy framework and set compliance criteria for the 
regulated industry. I am a big believer in the need of a public agency 
to allow for meaningful public input into a process which directly 
affects them--including the resolution of conflicts.
    My direct experiences with conflict resolution and negotiated 
solutions will be a compliment to the Udall Foundation Board as they 
plan for the possibilities of developing an institute for environmental 
conflict resolution which could be utilized by federal agencies. I know 
that the Chairman of the Board has called upon the strengths of several 
of the Trustees to forward the activities of the Foundation which 
Congress set forth. I would offer my considerations for development of 
the policies underlying the way conflict resolution should be 
approached with diverse parties. Over the years I have experienced what 
has worked and what has failed in a mediated framework. I believe that 
``lessons learned'' from others who have used certain techniques and 
methods is usually a good evaluation setting for developing conflict 
resolution policies. I look forward to being able to utilize my 
background and my personal ``lessons learned'' for the benefit of the 
Foundation's activities.
    Throughout my career I have taken, what I believe to be, a 
nonpartisan approach to the solution of problems and issues encountered 
by the agencies which I managed. And, although I have been a political 
appointee, those affiliations did not play a part in the work I was 
entrusted to do for the protection of the environment and the 
sustainable use of our natural resources. I believe that the 
endorsements I received from both of my Senators will attest to my 
objective resolutions of regulatory conflicts which I have encountered. 
I thank both Senator Dominici and Senator Bingaman for their kind words 
of support for my nomination, and thank them also for recognizing my 
ability to provide a nonpartisan approach to environmental issues.
    Thank you for this opportunity to discuss this question.
 Prepared Statement of D. Michael Rappoport, Associate General Manager 
  for Public & Communications Services of the Salt River Project (SRP)
    Mr. Chairman, Members of the Committee, my name is David Michael 
Rappoport of Paradise Valley, Arizona and I am Associate General 
Manager for Public & Communications Services of the Salt River Project 
(SRP), a public utility providing electricity and water to much of the 
Metropolitan Phoenix area. In that capacity I am responsible for 
community, corporate and government relations as well as communication, 
consumer and education services.
    Prior to joining SRP in 1973, I was employed by The National 
Association of Electric Companies in Washington, DC and before that 
served as a Legislative Assistant to former California Representative, 
Craig Hosmer and the late Congressman Rogers C.B. Morton of Maryland.
    Thank you for this opportunity to present myself as a Presidential 
nominee for the position of Trustee of the Morris K. Udall Scholarship 
and Excellence in National Environmental Policy Foundation and to share 
a few observations with you about the Foundation's achievements today.
    I would also like to express my appreciation to Senator John McCain 
and Senator Jon Kyl for their letters on my behalf to the Committee. If 
appropriate, I request that they be included in the record.
    My association with Mo Udall extends back nearly thirty years to a 
time when he was instrumental in building support for the Central 
Arizona Project, a major water supply system of energy, pumping and 
canal facilities. It continued through public policy activities 
involving land use planning, surface mining and reclamation, Indian 
water rights, the safety of Federal dams and several wilderness 
proposals.
    In the early years, the interests I represented were not always in 
total agreement with the positions so effectively advocated by Mo. But 
for most of our association, I was among the many who supported his 
leadership on a variety of issues of national import. In later years, I 
had the good fortune to either chair or serve on one of Mo's Business 
Advisory Committees, Energy and Water Task Forces as well as several of 
his re-election committees. And, like so many others, I came to admire 
his sense of civility, his ability to fashion consensus and above all, 
his integrity and commitment to public service.
    Mr. Chairman, when Congress established the Udall Foundation, it 
gave special tribute to these qualities. Specifically, in 1992 Congress 
authorized to be appropriated $40 million to the Morris K. Udall 
Scholarship and Excellence in National Environmental Policy Trust Fund. 
About half of that amount has been appropriated to date. The funds are 
administered by the Foundation to, among other things:
    <bullet> Increase awareness of the importance of the Nation's 
natural resources;
    <bullet> Establish a Program for Environmental Policy Research and 
Environmental Conflict Resolution in the Udall Center located at the 
University of Arizona;
    <bullet> Develop resources to train professionals in the fields of 
environmental, Native American and Alaska Native health care and tribal 
public policy; and
    <bullet> Award scholarships, fellowships, internships and grants 
for study in fields related to the environment, Native American and 
Alaska Native policy.
    Mr. Chairman, it was a particular privilege to be appointed by 
President Clinton in 1994 as one of the first Foundation Trustees. As 
Chair of the Management Committee, I can assure you that the Udall Fund 
and Foundation are committed to educating a new generation of young 
Americans.
    The Foundation's 1996 Annual Report, submitted with my testimony, 
notes that some $19 million appropriated by Congress has been invested 
in public debt securities to produce a revenue stream of nearly $1.5 
million. These earnings--and I would respectfully point out that only 
the interest on this investment and such other funds and services as 
may be received in accordance with the law--are used to carry out 
Foundation purposes.
    On behalf of the Foundation's Board of Trustees, it is a pleasure 
for me to report that to date the Udall Foundation:
    <bullet> Awarded scholarships in 1996 to 55 outstanding college 
juniors and seniors from 38 states and Puerto Rico. These scholars were 
selected from among 300 students nominated by the faculties of colleges 
and universities nationwide. Each received up to $5,000 for 1 year to 
cover tuition, fees, books and room and board. The Foundation 
anticipates awarding 70 undergraduate scholarships and 2 graduate 
fellowships in 1997.
    <bullet> Implemented the first summer internship program for Native 
American students who served in U.S. House and Senate offices as well 
as in the White House. We are hopeful of expanding that program this 
summer as well.
    <bullet> Sponsored a major seminar at the University of Arizona on 
Environmental Health issues in the U.S.--Mexico Boarder Region and will 
fund the 1997 Environmental Conflict Resolution in the West Conference, 
again in conjunction with the Udall Center.
    In sum, the Foundation's purpose and plan is best captured by Mo's 
own words of a few years ago:

          ``America is never done like a poem or a painting * * *''

    I am sure he believes, as do we, that the Foundation is well on the 
way to helping future generations care enough to change things. I would 
welcome the opportunity to serve a second term as a Udall Foundation 
Trustee to continue to help meet that challenge.
    Mr. Chairman, that concludes my statement. I am prepared to answer 
any questions the Committee may have at this time.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] TH043.058
    
    [GRAPHIC] [TIFF OMITTED] TH043.059
    
    [GRAPHIC] [TIFF OMITTED] TH043.060
    
    [GRAPHIC] [TIFF OMITTED] TH043.061
    
    [GRAPHIC] [TIFF OMITTED] TH043.062
    
    [GRAPHIC] [TIFF OMITTED] TH043.063
    
    [GRAPHIC] [TIFF OMITTED] TH043.064
    
    [GRAPHIC] [TIFF OMITTED] TH043.065
    
    [GRAPHIC] [TIFF OMITTED] TH043.066
    
    [GRAPHIC] [TIFF OMITTED] TH043.067
    
   Statement of Maj. Gen. Robert B. Flowers, Commander and Division 
    Engineer, Lower Mississippi Valley Division, U.S. Army Corps of 
                               Engineers
    Mr. Chairman and Members of the Committee, I am honored to appear 
before you as the nominee for president and member of the Mississippi 
River Commission.
    Mr. Chairman, I would like to make a brief statement about the 
Mississippi River Commission, the Mississippi River and Tributaries 
(MR&T) project, and my qualifications for the position for which I have 
been nominated.
    The Mississippi River Commission, established by an Act of Congress 
on June 28, 1879, consists of seven members, all of whom are appointed 
by the President of the United States subject to confirmation by the 
Senate. Three members are Corps of Engineers officers, one of whom 
serves as president; one member is from the National Oceanic and 
Atmospheric Administration; and three members are from the civilian 
sector, two of whom must be civil engineers. The geographic area 
addressed by the Commission is generally described as the Mississippi 
River and its tributaries below the confluence of the Ohio River near 
Cairo, Illinois.
    From its inception in 1879, the Commission has been charged with 
the vital task of planning and implementing a program of flood damage 
reduction projects and navigation improvements on the Mississippi 
River. More recently, project purposes have been expanded to include 
environmental restoration. This task continues to be conducted in 
concert with the myriad of political institutions, individuals, and 
public entities which have major interests in seeing that the water 
resources needs and opportunities of the Mississippi Alluvial Valley 
are evaluated, planned, designed, constructed, and maintained.
    The Mississippi River Commission also is responsible for the 
oversight and management of the Mississippi River and Tributaries 
project, which was authorized by the Flood Control Act of May 15, 1928. 
While the MR&T project covers portions of seven states, it receives 
water from all or part of 31 states and part of two Canadian provinces, 
or roughly 41 percent of the contiguous United States. Effective 
planning, design, construction, and operation of the widespread and 
complex MR&T project have been assisted greatly by the Commission's 
active consultation with the public, particularly on its semiannual 
lower Mississippi River inspection trips, and by the high degree of 
professionalism that has been developed in its staff.
    The MR&T project is truly of national significance. For example, a 
major flood on the lower Mississippi River would have catastrophic 
effects on the inhabitants of the Mississippi Valley and the economy of 
the Nation were it not for the protection provided by the levees and 
other flood control works throughout the project area. Many have noted 
that the comprehensive project on the lower river provided for passage 
of major floods in 1973, 1983, and other years without the extensive 
damage suffered in the upper river area during the 1993 flood event.
    In addition, the navigation features of the project are essential 
to maintaining the river for shipping import and export commodities 
between inland ports and world markets. In short, the navigation 
features of the MR&T project are essential in peace time and vital to 
our national defense in times of emergency.
    In regards to my personal qualifications, I am a 1969 graduate of 
Virginia Military Institute with a Bachelor's Degree in Civil 
Engineering, while also earning a Master's Degree in Civil Engineering 
in 1976 from the University of Virginia. In addition, I am a graduate 
of the Command and General Staff College and the National War College.
    I have served more than 27 years in the uniformed service as an 
Army Engineer. My experiences in the civil works function of the Corps 
of Engineers date back to 1976 when I served as a field engineer and 
research project manager in the Portland District in Portland, Oregon. 
Since August 1995, I have served as Commander of the Lower Mississippi 
Valley Division and also as chairman of the Mississippi River 
Commission.
    As Commander of the Lower Mississippi Valley Division and while 
working with the Mississippi River Commission, I have had command and 
oversight of the largest civil works mission in the U. S. Army Corps of 
Engineers. The civil works mission of the lower valley includes 
management of the Mississippi River from Hannibal, Missouri, to the 
Gulf, and tributaries to the Mississippi through that reach of the 
river. I provide command and control of Army Engineer Districts at St. 
Louis, Memphis, Vicksburg, and New Orleans. Management of the lower 
Mississippi River has required close coordination and understanding of 
the civil works functions of the Corps in divisions upstream, including 
the Missouri River Division, the North Central Division, and the Ohio 
River Division.
    I have also served in several military assignments. Most recently I 
served in a temporary assignment to Bosnia from January 3 through March 
17, 1996, as the deputy chief of staff for Engineering (Forward), U.S. 
Army Europe, and was responsible for the U.S. Forces construction in 
the Theater of Operations.
    Some of my other major past assignments include Assistant Division 
Commander, 2nd Infantry Division, Eighth U.S. Army, South Korea; Deputy 
Commanding General and Deputy Assistant Commandant, U.S. Army Engineer 
Center; Assistant Commandant and Director of Training, U.S. Army 
Engineer School; and Commander of the 20th Engineer Brigade (Combat) 
(Airborne Corps) in Fort Bragg, North Carolina, where I served during 
Operation Desert Shield and Desert Storm.
    If confirmed to the position, Mr. Chairman, I would look forward to 
playing a key role in the continual improvement of the MR&T project and 
applying the best of modern practices in water resources engineering. I 
would also look forward to being president of a Commission that focuses 
not only on the traditional roles of safely passing the Mississippi 
River Basin floodwaters to the Gulf of Mexico, plus providing a safe 
and dependable navigable waterway, but also recognizes the nation's 
environmental awareness and incorporates environmental restoration as a 
function of the MR&T project.
    Mr. Chairman, for your information, I have attached a complete 
biography on myself and a current list of members of the Mississippi 
River Commission.
    Mr. Chairman, that completes my prepared statement, and I would be 
pleased to respond to any questions.
[GRAPHIC] [TIFF OMITTED] TH043.070

[GRAPHIC] [TIFF OMITTED] TH043.071

  Responses by Maj. Gen. Flowers to Additional Questions From Senator 
                                 Chafee
    Question 1. Please discuss in a little more detail the primary 
functions of the Mississippi River Commission (MRC) and outline the 
major ongoing projects and objectives of the Commission for this fiscal 
year and Fiscal Year 1998.
    Answer. Sir, the Commission, since it was established in 1879, has 
been responsible for navigation, flood control, and other resource 
development on the Mississippi River. In the Flood Control Act approved 
15 May 1928, the Congress authorized a comprehensive project for 
control of floods and other purposes on the Mississippi River and its 
tributaries, extending from Cape Girardeau, Missouri, to the Head of 
Passes below New Orleans, Louisiana. The Act provided that the 
Mississippi River and Tributaries (MR&T) project be implemented by the 
Mississippi River Commission. A primary function of the Commission is 
to oversee implementation of the authorized project. The 1928 Act 
directed the Commission to make inspection trips of such frequency and 
duration as will enable it to acquire firsthand information as to 
conditions and problems germane to flood control and navigation and on 
such inspections trips conduct public hearings for persons affected by 
or interested in such problems. The Commission is charged in law to 
``recommend policy for development of details and carrying out the work 
of the adopted project.'' The Commission considers and recommends the 
general character and types of work to be used in construction of the 
project, advises on operation and maintenance of completed project 
features, and recommends annually the program of work to be undertaken 
during the following fiscal year.
    Although the MR&T project is currently 85 percent completed, there 
is much work remaining to be done to stabilize the Mississippi River 
Channel, complete the main stem flood control system, and complete work 
on tributary flood control and environmental projects. Of 2,059 miles 
of levee on the Mississippi and Atchafalaya Rivers, 346 miles are too 
low to carry the project design flood and 147 miles are in need of 
measures to eliminate the risk of levee failure from underseepage.
    In Fiscal Years 1997 and 1998, we will continue construction on the 
main line Mississippi River and Atchafalaya Rivers. This entails 
bringing levees up to grade and working to stabilize riverbanks for the 
purposes of flood control and navigation. We also are continuing with 
flood control and environmental improvements on tributary basins. We 
are continuing to purchase lands and easements in the Atchafalaya Basin 
to preserve natural environmental values of this vast and unique area 
and to provide some public access. Operation and maintenance of 
completed work are now costing about $130 million per year. For Fiscal 
Year 1997 Congress appropriated $310 million for the project including 
operation, maintenance, and construction. The President's budget for 
Fiscal Year 1998 includes $266 million for the MR&T project. Based on 
funding levels proposed by the administration, construction of the 
project is now projected to extend into year 2031.

    Question 2. Under the Army's proposal for restructuring the Corps 
of Engineers, the entire Mississippi River Valley would come under the 
jurisdiction of one division with its headquarters located in 
Vicksburg, Mississippi. What advantage do you see from this 
restructuring and what impact will it have on the work and 
responsibilities of the Commission?
    Answer. Sir, the Division Restructuring Plan, approved by the 
Secretary of the Army to be implemented beginning 1 April 1997, will 
place the upper Mississippi under command and control of the Lower 
Mississippi Valley Division--to be renamed the Mississippi Valley 
Division. The Division will include the engineer districts at St. Paul, 
Minnesota, and Rock Island, Illinois, in addition to the districts at 
St. Louis, Memphis, Vicksburg, and New Orleans. The realignment will 
allow improved coordination of work throughout the length of the 
Mississippi River and will provide for improvement in management of 
flood flows as well as planning, improvement, and operation of the 
inland navigation system.
    The reorganization will not directly affect the responsibilities of 
the Commission. The Commission, when formed in 1879, was authorized to 
function on the Mississippi River ``between the Head of Passes near its 
mouth to its headwaters.'' From the beginning of the Commission in 
1879, the Commission has been authorized to make and review surveys and 
examinations, including topographical, hydro- graphical, and 
hydrometrical investigations, and serve as advisors on improvements to 
provide navigation and prevent destructive floods over the entire 
length of the river.
    The restructuring will allow for more effective involvement of the 
Commission as advisors on Corps work in the upper Mississippi Basin 
should their involvement be considered beneficial. From time to time 
prior to 1928, the Congress authorized and funded specific projects to 
be implemented under direction of the Commission on both the upper and 
lower reaches of the Mississippi River.
    In 1928 when the Congress authorized the massive Mississippi River 
and Tributaries project, which is still under construction, that 
project became the primary focus of the Commission. In recent years, 
the Congress has not directed that any projects in the upper 
Mississippi Basin be implemented under the oversight of the Commission. 
Ongoing and future projects in the Rock Island and St. Paul Districts 
will continue to be under the construction general program of the 
Corps, just as the current construction general work is now conducted, 
unless the Congress and the Administration authorizes work to be 
accomplished under direction of the Mississippi River Commission.

    Question 3. As we approach the 21st century, is there a continuing 
need for the MRC? Do you see an advantage for the Commission to have 
jurisdiction over the entire Mississippi River Valley?
    Answer. Sir, the primary focus of the Commission over the past 
several years has been implementation and operation of the MR&T project 
which extends from Cape Girardeau, Missouri, to the Head of Passes 
below New Orleans, Louisiana. The MR&T project is a multi-billion 
dollar project which has been under development since 1928 with 
construction scheduled to extend into the 21st century, to 2031, at 
proposed funding levels.
    This extremely complex project requires many difficult and often 
controversial decisions on sequencing and prioritizing the various 
elements, taking into account technical engineering considerations as 
well as resource constraints and environmental, social, and political 
considerations.
    The Commission, with the public meetings and other coordination 
activities, provides a valuable service in promoting understanding of 
problems and concerns of the affected public and conveying to the 
public an understanding of the project and its operation.
    Given the budgetary and manpower constraints now faced by the 
Federal Government and the added complexity to the projects by 
environmental and other concerns, the value of the Commission is even 
greater today than it has been in the past.
    Perhaps the greatest value of the Mississippi River Commission in 
the lower river area has been to facilitate cooperation between the 
Federal and local interests in the river basin in consideration of all 
the needs and opportunities for flood control, navigation, and 
environmental preservation. I believe that the Commission, with its 
unique mix of military and civilian membership, could contribute 
significantly in addressing the various interests in the upper 
Mississippi River Basin and certainly could improve coordination of 
issues affecting the entire Mississippi River Valley.

    Question 4. Traditionally, the MRC has been involved in flood 
control and navigation but it recently expanded its project purposes to 
include environmental restoration. Please highlight for me what 
environmental restoration efforts you have under way as part of the 
Mississippi River and Tributaries project. What impediments exist to 
conduct additional and necessary environmental restoration?
    Answer. Sir, the Commission has increased emphasis on maintaining 
and restoring the environment as the MR&T project is implemented. 
During the past several years, the Commission has implemented a number 
of environmental initiatives into the planning, construction, and 
operation of the Mississippi River and Tributaries project. Although 
the Commission considers flood control and navigation as high-priority 
initiatives, I am sure the Commission will take every available 
opportunity to maintain and restore environmental values as well.
    Over the past several years, the Commission has recommended to the 
Congress a number of modifications of the project, specifically for the 
purpose of preserving and enhancing environmental resources in the 
lower Mississippi Valley and is in the process of implementing a number 
of the authorized modifications. Among the more significant 
environmental features are the purchase of lands and easements and the 
development of water management units in the vast and unique wetland 
areas in the Atchafalaya Basin and construction of freshwater diversion 
structures to improve fisheries and reduce wetland loss due to 
subsidence along coastal Louisiana. Water control structures to benefit 
waterfowl and fisheries have been and are being developed in several 
tributary projects, including the Yazoo and St. Francis Basin in 
Mississippi and Arkansas, and construction of erosion control 
facilities in the Yazoo Basin.
    Channel stabilization works such as dikes and revetments have been 
specifically designed to improve fisheries in the Mississippi River and 
protect the Interior Least Tern, an endangered species of bird found on 
the lower river. Borrow pits, where material is taken to construct 
earth levees, have for several years been designed for use as fisheries 
and waterfowl habitat. Over the past several months, we have initiated 
efforts to redesign borrow areas and employ construction techniques to 
avoid and minimize the use of wetlands and the taking of bottom land 
hardwoods for borrow areas.
    The primary impediment to additional environmental work is 
generally the same impediment as for other works, the availability of 
funds. With additional funding, purchase of lands and easement and 
other environmental development in the Atchafalaya Basin could be 
accelerated as well as environmental preservation and restoration work 
throughout the valley.
    Authorization of an Environmental Management Program on the lower 
Mississippi River as currently exists on the upper Mississippi would 
provide greater opportunity for environmental work on the lower 
Mississippi River.

    Question 5. The Water Resources Development Act (WRDA) of 1996 
included some important environmental provisions. What efforts do you 
have underway to implement these provisions in the Mississippi River 
Valley?
    Answer. Sir, WRDA 1996 contains several important environmental 
provisions we are implementing. The following is a summary of several 
provisions and our efforts to implement them.
    Subpart c of Section 202 requires that before construction is 
initiated for a local flood control project that involves Federal 
assistance, the non-Federal interest shall agree to participate in and 
comply with Federal flood plain management and flood insurance 
programs. The requirement for a Flood Plain Management Plan will reduce 
damages from recurring flood events and in many instances will assist 
in preserving environmental values of natural flood plains.
    Section 202 also contains provisions related to vegetation 
management of levees. We are utilizing methods to enhance the wildlife 
value of vegetative plantings as part of levee maintenance.
    Section 204 expands the scope of Section 1135 of WRDA 1986 by 
extending the limits of action from the immediate project site to other 
locations that may have been affected by the construction or operation. 
The Lower Mississippi Valley Division is aggressively pursuing the 
Section 1135 Authority, and we expect to request funding using the 
provisions of Section 204 this year.
    Section 206 authorizes small aquatic ecosystems restoration 
projects up to $5 million Federal cost each, with an annual limitation 
of $25 million for the program. The Section 206 projects are to be 
accomplished generally as the Section 1135 process is outlined. At the 
field level, we would welcome an expansion of small restoration 
projects; however, initial program implementation is subject to 
appropriation of $2 million in Fiscal Year 1998.
    Section 207 allows the use of a disposal method that is not the 
least-cost option if the non-Federal sponsor consents and if the 
incremental costs are reasonable in relation to environmental benefits, 
including creation of wetlands and shoreline. The Division has 
supported beneficial use of dredged material and seeks opportunities to 
create new wetlands or enhance their value using this natural resource. 
This legislation would allow the Corps to select disposal methods 
beneficial to the environment rather than the least-cost option and 
provides us with a new tool to evaluate dredge and disposal projects.
    Section 212 authorizes the Secretary of the Army to undertake 
investigations of innovative technologies that may lead to work under 
existing authorities or to recommendations for additional authorities. 
Fiscal Year 1998 funding of $1 million has been requested at the 
Washington level to initiate this provision. Initial focus of work will 
be in the development of cost-effective technologies and protocols for 
contaminated bottom sediment remediation associated with Corps 
navigation projects; development and demonstration of a state-of-the-
art Watershed Management Support System, including advanced data 
acquisition and management systems, geo-ecophysical models, and 
decision support technologies; and development of technologies and 
guidance to support the. Environmental Protection Agency (EPA) 
Brownfields economic revitalization initiatives associated with Corps 
civil works projects. We welcome the development of these technologies 
which will assist us in accomplishing our planning, construction, and 
operational requirements.
    Section 221 amends Section 22 of WRDA 1974 to expand the area in 
which the Corps is authorized to assist states and bring the full 
expertise of the Corps to bear on local problems. The section allows 
the Corps to include watershed and ecosystem planning. We look forward 
to assisting states with increased efforts and to use the talents of 
our environmental planners to solve local problems. Each District 
Engineer will see that the states for which he is responsible receive 
prompt and professional planning services. We have and will continue to 
place responsibility and encourage our Districts to contact and work 
with states to make this program more successful.
    Section 232 requires that the Corps consider measures to preserve 
and enhance scenic and aesthetic qualities in the vicinity of civil 
works projects. Planning and policy guidance dealing with scenic and 
aesthetic resources has been in force for many years. Our engineers and 
planners are trained in analyzing and incorporating scenic and 
aesthetic values into our constructed landscapes. Incorporating 
environmental quality in project design is an important goal of the 
civil works program. Besides the numerous recreation areas at our 
lakes, perhaps our most well-known aesthetic feature is the flood wall 
in New Orleans which was designed such that many people wander in and 
out of the wall and do not even realize its function. Landscape 
architects on our District staffs assure the latest techniques are 
incorporated into our projects to achieve positive contributions to 
scenic and aesthetic quality.
    Section 234 is a general authority and allows the Corps to accept 
and expend funds from other Federal agencies or international 
organizations to carry out interagency and international support. 
Although we have not yet received specific budget guidance on Section 
234, the Division is very active in supporting interagency efforts. The 
Division staffs a full-time person with the Gulf of Mexico Program 
Office at the Stennis Space Center; is currently the Chair of Coastal 
America, Gulf Regional Implementation Team; and is executing the 
Coastal Wetlands Planning, Protection, and Restoration Act (CWPPRA) in 
coastal Louisiana with multiple Federal and state interests. We fully 
support and participate in the Upper Mississippi River Navigation Study 
and are developing information to begin to address the hypoxia issue, a 
mission we view as consistent with our new responsibility for the 
Mississippi River. We are active in supporting the Department of State 
and other international environmental efforts. We have hosted guests 
from the Near and Far East and have sent key staff to South America, 
China, and Japan to assist those countries in their water resource 
problems.
    Section 532 modifies the CWPPRA to provide for a reduced non-
Federal share of restoration projects to 10 percent in calendar years 
1996 and 1997. This provision will not increase the Federal share of 
the CWPPRA projects as the Federal share is dependent on a fixed amount 
from the small-engine tax. The decreased cost share will apply to 
CWPPRA Priority Lists 5 and 6. To date, 68 projects have been 
authorized on five project priority lists. As the Federal agency with 
lead responsibility, we have and will continue to assure that this 
vital restoration program is given top priority.

    Question 6. What impact do you expect the flooding in the Ohio 
River Valley to have on the Lower Mississippi River Valley? What 
measures are you taking/have been taken to prepare for possible future 
flooding?
    Answer. Sir, runoff from the Ohio River flooding into the lower 
Mississippi River has resulted in record flood stages on the lower 
Mississippi River for this time of the year. Flood stages are higher 
than they were at this time of the year in 1927 when the record flood 
occurred which resulted in authorization of the MR&T project. The MR&T 
project is operating as designed. In March, we began initial 
preparation in case we might need to operate the floodway at New 
Madrid, Missouri. Fortunately, the stages began to recede so that 
operation of the floodway has not been necessary and unless we have 
additional heavy rainfall, will not be necessary. The Bonnet Carre 
Floodway above New Orleans was opened on 17 March to relive possible 
flooding and avoid levee failure in the vicinity of New Orleans. It has 
been necessary to do some emergency work to raise levees in some areas 
where grades are deficient and to control underseepage at many 
locations.
    Although the project is functioning as designed to protect against 
flood levels experienced so far this year, there is extensive flooding 
in unprotected areas, and several areas protected by private levees 
which are not a part of the Federal systems are requiring extensive 
flood fighting.
    The 1997 flood experience points to the necessity of continuing 
construction on the project as rapidly as resources permit as it is 
obvious that the project at the current stage of completion cannot 
safely pass the project design flood or even the record flood 
experienced in 1937.
    We are hopeful that the river will continue to recede over the next 
few weeks prior to the normal period of higher floods in mid-April and 
May.

    Question 7. What role will the Commission expect to play in 
defining future U.S. flood control policy?
    Answer. Sir, there are many divergent opinions concerning the 
proper role of the Nation in flood control. Generally, it is my view 
that the Federal Government's responsibility should be to provide for 
the needs of people when local governments cannot or will not meet 
those needs.
    Flood control needs on the Lower Mississippi River, extending into 
seven states and resulting from runoff from 41 percent of the United 
States, constitute an obvious national interest. Local governments 
could never have achieved the development of the comprehensive project 
without the engineering expertise of a Federal agency such as the Corps 
of Engineers and under the oversight of a group such as the Mississippi 
River Commission, which facilitates input from both Federal and local 
interests in implementation of the project.
    The Mississippi River Commission is charged by law to recommend to 
the Chief of Engineers policies for implementing the Mississippi River 
and Tributaries project. The Administration over the years and the 
Congress have continued to recognize the unique nature and national 
interest in the improvement and maintenance of flood control and 
navigation systems on the Mississippi River. The continued existence 
and support of the Presidentially appointed Commission and confirmation 
by the Senate are evidence of the unique nature of the Mississippi 
River. Generally, the Commission is not considered as having a 
significant role in the establishment of national flood control policy 
as it is applied to more localized projects.
[GRAPHIC] [TIFF OMITTED] TH043.077

[GRAPHIC] [TIFF OMITTED] TH043.078

[GRAPHIC] [TIFF OMITTED] TH043.079

[GRAPHIC] [TIFF OMITTED] TH043.080

[GRAPHIC] [TIFF OMITTED] TH043.081

[GRAPHIC] [TIFF OMITTED] TH043.082

[GRAPHIC] [TIFF OMITTED] TH043.083

[GRAPHIC] [TIFF OMITTED] TH043.084

[GRAPHIC] [TIFF OMITTED] TH043.085

</pre></body></html>
